          OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Attestation Report




      The Environmental Careers
      Organization Reported Outlays for
      Five EPA Cooperative Agreements

      Report No. 2007-4-00065

      June 25, 2007
Report Contributors:	            Keith Reichard
                                 Richard Valliere
                                 Yeon Kim




Abbreviations

Agreement           Cooperative Agreement
CFR                 Code of Federal Regulations
EPA                 U.S. Environmental Protection Agency
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
Recipient           The Environmental Careers Organization
                       U.S. Environmental Protection Agency                                                 2007-4-00065

                                                                                                            June 25, 2007

                       Office of Inspector General


                       At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review            The Environmental Careers Organization Reported
                                  Outlays for Five EPA Cooperative Agreements F
We conducted this
examination to determine
                                   What We Found
whether the (a) reported
outlays for five U.S.             The Recipient did not comply with the financial and program management
Environmental Protection
                                  standards promulgated in Title 40 Code of Federal Regulations (CFR), Subchapter
Agency (EPA) assistance
agreements were reasonable,       B and OMB Circular A-122. We questioned $6,027,814 of claimed costs because
allocable, and allowable in       the Recipient (1) could not support the indirect general and administrative, and
accordance with the terms and     “mission and placement” outlays; (2) did not maintain support for distributing
conditions of the agreements      salaries and wages claimed as indirect general and administration, and “mission
and applicable regulations;       and placement”; (3) could not support relocation outlays; and (4) drew EPA funds
and (b) The Environmental         in excess of those needed to meet immediate needs. The Recipient did not have
Careers Organization              written accounting procedures for identifying direct and indirect costs, and the
(Recipient) achieved the          basis for allocating such costs to projects. The Recipient also did not complete the
intended results of the grant.    required single audit for fiscal year 2005 or comply with financial reporting
                                  requirements.
Background
                                  The purpose of the grants was to provide undergraduate and graduate students
EPA awarded five assistance       with exposure to environmental programs through training and experiences in
agreements to the Recipient to    conducting research projects at EPA facilities. As of September 30, 2006, the
provide internships to students   Recipient recruited 1,423 interns.
in the environmental field.

                                   What We Recommend

                                  We recommend that the Director for the Grants and Interagency Agreements
                                  Management Division address the questioned costs by (1) recovering payments of
                                  $4,750,342 unless the recipient can modify its accounting system to meet the
                                  requirements of Title 40 CFR 30.21 to 31.28; (2) recover payments of $1,277,472
                                  incurred for ineligible costs; (3) rescind the final indirect cost rate approved for the
                                  fiscal year ended December 31, 2004; and (4) require the Recipient to establish
For further information,          policies and procedures for relocating interns that comply with OMB Circular
contact our Office of             A-122. To address the reporting issues, the Recipient should be required to
Congressional and Public          complete and submit its single audit for the fiscal year ended December 31, 2005,
Liaison at (202) 566-2391.
                                  and prepare and submit overdue SF 272 Federal Cash Transactions Reports. Due
To view the full report,          to the significance of these findings, we also recommend that EPA stop work on
click on the following link:      all active agreements and not award any new agreements until the Recipient meets
www.epa.gov/oig/reports/2007/     minimum financial management requirements and repays all disallowed costs.
20070625-2007-4-00065.pdf
                                  The Recipient responded to the draft report on June 5, 2007, but did not provide
                                  additional information that would change the findings and recommendations.
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               WASHINGTON, D.C. 20460



                                                                                OFFICE OF
                                                                           INSPECTOR GENERAL



                                          June 25, 2007

MEMORANDUM

SUBJECT:	 The Environmental Careers Organization Reported Outlays for Five
          EPA Cooperative Agreements
          Report No. 2007-4-00065


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Richard Kuhlman
               Director, Grants and Interagency Agreement Management Division


This is our report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that
describe the problems the OIG has identified and corrective actions the OIG recommends.
This report represents the opinion of the OIG and does not necessarily represent the final
EPA position. Final determination on matters in this report will be made by EPA managers
in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $265,099

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide
us your proposed management decision for resolution of the findings contained in this
report before any formal resolution can be completed with the grantee. Your proposed
decision is due on October 17, 2007. To expedite the resolution process, please email an
electronic version of your proposed management decision to kasper.janet@epa.gov.

We have no objections to the further release of this report to the public. For your
convenience, this report will be available at http://www.epa.gov/oig. We want to express
our appreciation for the cooperation and support from your staff during our review. If you
have any questions about this report, please contact Janet Kasper at (312) 886-3059 or the
above email address.
                                    The Environmental Careers Organization 

                             Reported Outlays for Five EPA Cooperative Agreements 




                                       Table of Contents 

Background .......................................................................................................................     1


Independent Auditor’s Report ............................................................................................              3


Results of Examination .......................................................................................................         5


Recommendations............................................................................................................... 14 


Status of Recommendations and Potential Monetary Benefits....................................... 15 




Schedules
Schedule 1 	           Schedule of Recorded Costs/Reported Outlays 

                       and Questioned Costs by Assistance Agreement ................................. 16 


Schedule 2 	           Schedules of Excess Mission and Placement Costs ............................. 18 




Appendices
     A       Scope and Methodology....................................................................................... 20 


     B       Recipient Response ............................................................................................. 21 


     C       Distribution ............................................................................................................ 24

                                       Background
The U.S. Environmental Protection Agency (EPA) awarded five cooperative agreements
(agreements) to the Environmental Careers Organization (Recipient) totaling $20,498,630. The
Recipient, which is located in Boston, Massachusetts, was formed in 1972, and is a Section
501(c) (3) not-for-profit organization (specified in the Internal Revenue Code). The following
table summarizes information about the authorized project periods and funds awarded under each
of the five agreements:


                  Award          EPA             EPA             Payment
  Agreement        Date         Share *        Payments           As of          Project Period
 EQ82906501      6/13/2001     $3,292,906       $3,243,818      09/28/2006   05/01/2001 - 10/31/2006
 EQ82898601      4/23/2001      5,177,194        5,174,355      09/28/2006   05/01/2001 - 10/31/2006
 EQ83166001      5/03/2004      5,308,900        4,577,097      09/28/2006   05/01/2004 - 04/30/2007
 EQ83103201      8/01/2003      1,772,403        1,184,464      08/17/2006   07/01/2003 - 06/29/2007
 EQ82797401      1/05/2000      4,947,227        4,947,227      10/01/2004   10/01/1999 - 09/30/2004
 Total                        $20,498,630      $19,126,961

 Source: The source of the agreement information was the agreements/amendments. The EPA payments and payment
 dates came from EPA’s Financial Data Warehouse.

 * EPA funded 100 percent of all agreements.

The five agreements were awarded under multiple regulatory authorities based on the EPA
program offices requesting internships. The objective of the five agreements was to provide
undergraduates and graduate students with exposure to environmental programs through training
and experiences in conducting research projects at EPA facilities. The Recipient recruited
interns at universities, with large culturally diverse student populations, to inspire students to
seek environmental careers.

The number of internships by agreement as of September 30, 2006, was as follows:

                                                          No. of
                                    Agreement          Internships
                                   EQ82906501             240
                                   EQ82898601             405
                                   EQ83166001             333
                                   EQ83103201             100
                                   EQ82797401             345
                                      Total              1,423
                                   Source: The number of internships
                                   was provided by the Recipient.

                                                   1
Special Conditions

On February 8, 2006, in order to safeguard EPA funds, EPA imposed a special condition on all
EPA assistance agreements awarded to the Recipient. The special condition limited the
Recipient to drawing EPA funds only for student-related expenses for the interns. The special
condition was placed on the Recipient until the Recipient’s new accounting system was in place,
and was capable of properly allocating all direct costs to each of the EPA cooperative
agreements. On August 10, 2006, EPA amended the special condition, and authorized the
Recipient to draw “mission and placement” funds but left intact the prohibition of drawing funds
for indirect costs. As of April 3, 2007, the special condition remained in effect.

To assist the reader in understanding the report, key terms are defined below:

       Reported Outlays/Cost: 	      Actual cash disbursements identified by the Recipient on its
                                     Schedules of Recorded Costs and the final Financial Status
                                     Report (Standard Form 269A).

       Questioned Costs:	            Costs that are (1) contrary to a provision of a law,
                                     regulation, agreement, or other document governing the
                                     expenditures of funds; or (2) not supported by adequate
                                     documentation.




                                                2

                              Independent Auditor’s Report
We have examined the Schedules of Recorded Costs the Recipient prepared for EPA agreements:
EQ82906501, EQ82898601, EQ83166001, and EQ83103201. The Recipient did not file its
Federal Cash Transactions Reports, Standard Form 272, covering disbursements made for the
periods after June 30, 2005. Accordingly, we asked and received the Recipient’s Schedule of
Recorded Costs for each agreement as of September 30, 2006. For agreement EQ82797401, we
examined the outlays that the Recipient reported on its final Financial Status Report.

Preparing the Schedules of Recorded Costs and the final Financial Status Report was the
Recipient’s responsibility. Our responsibility is to express an opinion on the Schedules of
Recorded Costs and the final Financial Status Report and whether the reported outlays were
allowable and incurred in accordance with the terms and conditions of the agreements and
applicable EPA regulations. A summary of the Recipient’s claimed outlays/recorded costs1 by
agreement follows:


                          Schedule of Recorded Costs/Financial Status Report
                                                                          Reported
                                       Date             Period        Outlays/Recorded
                  Agreement         Submitted           Ending              Costs
               EQ82906501                  11/29/2006               9/30/2006                  $3,220,470
               EQ82898601                  11/29/2006               9/30/2006                   5,137,791
               EQ83166001                  11/29/2006               9/30/2006                   4,448,356
               EQ83103201                  11/29/2006               9/30/2006                   1,215,797
               EQ82797401                   12/30/04                9/30/2004                   4,774,690
                      Total                                                                   $18,797,104

                Source: Except for agreement EQ82797401, the sources of the recorded costs were the
                Recipient’s Schedules of Recorded Costs dated November 29, 2006. For agreement
                EQ82797401, the source of the reported outlays was the Recipient’s final Financial Status
                Reports dated December 30, 2004.

We conducted our examination in accordance with the Government Auditing Standards issued by
the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We also followed the
guidelines and procedures established in the Office of Inspector General Project Management
Handbook, dated January 14, 2005. We examined, on a test basis, evidence supporting the
reported outlays, and performed such other procedures as we considered necessary in the
circumstances (see Appendix A for details). We believe that our examination provides a
reasonable basis for our opinion.


1
    For reporting purposes, we will refer to the Recipient’s claimed outlays/recorded costs as outlays or costs.

                                                             3

We questioned reported outlays of $6,027,814 because the Recipient did not comply with the
financial and program management standards in Title 40 Code of Federal Regulations (CFR),
Subchapter B, Part 30.

In our opinion, because of the effects of the findings discussed in the Results of Examination, the
Schedules of Recorded Costs by Assistance Agreement and the outlays that the Recipient
reported on its final Financial Status Report do not present fairly, in all material respects, the
allowable costs incurred in accordance with the terms and conditions of the agreements and
applicable EPA regulations.


Janet Kasper
Janet Kasper
Office of Inspector General
U.S. Environmental Protection Agency
May 4, 2007




                                                 4

                                   Results of Examination
Financial and Program Management Systems Did Not Comply with
Standards

The Recipient did not comply with the financial and program management standards
promulgated in Title 40 Code of Federal Regulations (CFR), Subchapter B, and OMB Circular
A-122. We questioned $6,027,814 of claimed costs because the Recipient (1) could not support
the indirect general and administrative, and “mission and placement” outlays; (2) did not
maintain support for distributing salaries and wages claimed as indirect general and
administration, and “mission and placement”; (3) could not support relocation outlays; and (4)
drew EPA funds in excess of those needed to meet immediate needs. The Recipient did not have
written accounting procedures for identifying direct and indirect costs, and the basis for
allocating such costs to projects. The Recipient also did not complete the required single audit
for fiscal year 2005 or comply with financial reporting requirements.

The provisions of Title 40 CFR 30.62 provide that if a recipient materially fails to comply with
the terms and conditions of an award, whether stated in a Federal statute, regulation, assurance,
application, or notice of award, EPA may disallow all or part of the cost of the activity or action
not in compliance. Because the Recipient did not comply with the grant regulations, we
questioned $6,027,814 paid to the Recipient.

Unsupported Indirect Outlays

         We questioned the indirect costs that the Recipient allocated to the agreements for several
         reasons. First, the Recipient allocated indirect costs to the EPA agreements based on an
         unsupported predetermined indirect rate that was not negotiated with either EPA or any
         other Federal agency. Second, the Recipient did not use the final rate it had negotiated
         for fiscal year 2004 when allocating indirect costs to the agreements. Third, the
         Recipient’s indirect costs included unallowable and unsupported costs that may impede
         EPA from negotiating indirect rates. As a result, we have questioned $2,647,855 of
         indirect costs and are recommending EPA rescind the approved final indirect rate for
         fiscal year 2004. See Schedule 1, Note 3, for the detail of questioned indirect outlays by
         agreement.

         Under the provisions of OMB Circular A-122, Attachment A, Paragraph E, a
         predetermined rate may be negotiated for use on awards where there is reasonable
         assurance, based on past experience and reliable projection of the organization's costs,
         that the rate is not likely to exceed a rate based on the organization's actual costs.2 Where
         predetermined rates are not appropriate, the Circular requires provisional and final rates
2
 A predetermined rate means an indirect cost rate, applicable to a specified current or future period, usually the
organization's fiscal year. The rate is based on an estimate of the costs to be incurred during the period. A
predetermined rate is not subject to adjustment.


                                                           5

        be negotiated. The Circular defines a provisional rate as a temporary indirect cost rate
        applicable to a specified period which is used for funding, interim reimbursement, and
        reporting indirect costs on awards pending the establishment of a final rate for the period.
        A final rate means an indirect cost rate applicable to a specified past period which is
        based on the actual costs of the period. A final rate is not subject to adjustment.

        The Circular provides that a nonprofit organization which has not previously established
        an indirect cost rate with a Federal agency shall submit to its cognizance agency, for
        negotiation, an initial indirect cost proposal immediately after the organization is advised
        that an award will be made and, in no event, later than 3 months after the effective date of
        the award. After establishing an indirect cost rate, the Recipient must submit a new
        indirect cost proposal to the cognizant agency within 6 months after the close of each
        fiscal year. The results of each negotiation shall be formalized in a written agreement
        between the cognizant agency and the nonprofit organization.

        The Recipient did not negotiate either provisional or final indirect cost rates for any fiscal
        year, except fiscal year 2004. For fiscal year 2004, the Recipient negotiated a final
        indirect rate of 18.14 percent with EPA. The Recipient, however, did not use the final
        negotiated indirect rate in determining the reported indirect outlays for fiscal year 2004.
        Instead, the Recipient determined its reported indirect outlays of $2,647,855 (see
        Schedule 1, page 15), by using an unsupported predetermined indirect rate of 18 percent
        applied to the total outlays for stipends, stipend fringes, stipend other, and “mission and
        placement.” Accordingly, we questioned the allocated indirect outlays of $2,647,855 as
        unsupported. We also recommend that EPA rescind the approved final indirect rate for
        fiscal year 2004 for the reasons discussed below.

        During our field work, the recipient prepared and provided us with final indirect rates for
        all fiscal years including a revised rate for fiscal year 2004.3 Our review of these rates
        identified three issues that may impede EPA from negotiating any rates with the
        Recipient. First, the Recipient included development costs in the indirect expense pools.
        According to the Recipient, development costs includes raising funds through grant
        writing, direct mail appeals, special events, and direct personal requests to foundations,
        corporations, government, and alumni for recruiting and placing interns. OMB Circular
        A-122, Attachment A, Paragraph B (3) provides that fund raising costs are not allowable
        as charges to Federal awards and must be treated as a direct cost. The following table
        identifies the development costs which were included in the indirect cost pools:




3
 The indirect cost rates the Recipient provided to us during the audit had not been submitted and negotiated with
EPA, as required by OMB Circular A-122.

                                                         6

                                Fiscal Year          Amount
                                    2000                 $173,644
                                    2001                  225,366
                                    2002                  151,000
                                    2003                    89,018
                                    2004                    70,289
                                    2005                    37,928
                                    2006                    22,716
                                    Total                $769,961

                                Source: OIG analysis of Recipient
                                accounting records

     The second issue we identified was that the Recipient included certain direct costs as
     indirect costs contrary to the provisions of OMB Circular A-122, Attachment A,
     Paragraphs B and C. Specifically, the Recipient included direct costs related to the
     Department of Interior and the State of California projects as indirect costs. The Recipient
     also included direct intern fringe benefits costs as indirect costs. The Recipient did not
     provide us with a complete listing of project numbers, therefore, we could not identify the
     total direct project costs that needed to be removed from the indirect cost pools.

     Finally, the Recipient’s timekeeping practices also impact the Agency’s ability to
     negotiate indirect cost rates. We were unable to determine the validity of the labor costs
     included in both the indirect costs pool and the indirect cost allocation base for any fiscal
     year (see discussion below under Unsupported Salaries and Wages).

     In response to the draft report, the Recipient stated that it had submitted indirect cost
     proposals for several years, but a rate was only negotiated for 2004. The Recipient
     agreed that there were some errors that resulted in billing different rates, but the
     provisional rate was substantially less than the actual indirect cost rates. According to the
     Recipient, even if the unallowable items were excluded, the rate billed was less than
     actual funds spent. While the Recipient stated that actual indirect costs exceeded what
     was billed, the EPA must approve the indirect cost rates before they can be used to
     determine allowable costs.

Unsupported “Mission and Placement” Outlays

     The Recipient’s “mission and placement” costs were costs that the Recipient incurred to
     recruit and place interns for EPA. We questioned “mission and placement” costs that the
     Recipient allocated to the agreements for two reasons. First, the Recipient allocated the
     “mission and placement” costs to the EPA agreements based on unsupported
     predetermined “mission and placement” rates that were not negotiated with either EPA or
     any other Federal agency. Second, the Recipient’s “mission and placement” outlays
     included unsupported costs that may impede EPA from negotiating the “mission and

                                                7

        placement” rates. As a result, we have questioned $2,616,154 of “mission and
        placement” costs. See Schedule 1, Note 2, for the detail of questioned “mission and
        placement” outlays by agreement.

        The Recipient did not identify the “mission and placement” costs specifically to a
        particular final cost objective, i.e., a particular award or project of the organization.
        Instead, the Recipient identified and recorded the “mission and placement” costs as EPA
        program costs, and then identified the costs to the EPA agreements based on
        predetermined rates applied to the stipends paid under each EPA agreement. For
        example, the Recipient identified “mission and placement” costs to EPA agreement
        EQ82797401 at a rate of 23.09 percent, but the costs actually varied from 12.36 percent
        in calendar year 2000 to 23.16 percent in calendar year 2004 (see Schedule 2.5, on page
        19). The actual rates varied each year depending upon the actual costs incurred for
        mission and placement activities and stipends paid to interns. The use of predetermined
        rates in this case resulted in excess outlays of $180,563 being identified to the EPA
        agreement.

        Title 40 CFR 30.27 provides that the allowable costs incurred by nonprofit organizations
        are determined in accordance with the provisions of OMB Circular A-122. OMB
        Circular A-122 provides that predetermined rates may only be used if negotiated and
        formalized in a written agreement between the cognizant agency and the nonprofit
        organization. We found no evidence that predetermined rates were negotiated by EPA or
        any other Federal agency.

        As previously noted, a predetermined rate may be negotiated for use on awards where
        there is reasonable assurance, based on past experience and reliable projection of the
        organization's costs, that the rate is not likely to exceed a rate based on the organization's
        actual costs. Where predetermined rates are not appropriate, the Circular requires
        provisional and final rates be negotiated. The Recipient did not submit and negotiate
        either provisional or final “mission and placement” rates for any fiscal year.

        In total, under the five agreements, the Recipient identified “mission and placement”
        costs of $2,616,154. During our field work, the Recipient calculated actual “mission and
        placement” rates for all periods under review.4 Based on the Recipient’s calculations, the
        identified “mission and placement” costs exceeded the actual costs by $513,667 under the
        five agreements. Consequently, the $513,667 amount is unallowable. The remaining
        “mission and placement” costs of $2,102,487 ($2,616,154 - $513,667) are also
        unallowable as the recipient did not submit its “mission and placement” rates to EPA for
        negotiation as required by the OMB Circular A-122, Attachment A, Paragraph E (2).

        Further, we were unable to determine the allowability of some of the costs included in
        “mission and placement” cost pools for the fiscal years under review which may impact
        the Agency’s ability to negotiate the “mission and placement” rates. We requested but

4
 The indirect “mission and placement” rates the Recipient provided to us during the audit had not been submitted
and negotiated with EPA, as required by OMB Circular A-122.


                                                        8

     the Recipient did not provide us with source documentation to support costs in such
     accounts as (1) grant funded programs, (2) bank fees, (3) conference expenses, and (4)
     outside consulting and travel costs. In addition, we were unable to determine the validity
     of the labor costs included in “mission and placement” cost pool for any fiscal year.
     Should the Recipient submit final “mission and placement” rates to EPA for negotiation,
     we recommend that EPA disallow all costs that are not supported, including all labor
     costs (see discussion below under Unsupported Salaries and Wages). See Schedule 1,
     Note 2, for the detail of questioned “mission and placement” outlays.

     In responding to the draft report, the Recipient stated that while the “mission and
     placement” rates were not negotiated, they were annually provided to EPA. Changes in
     staffing also contributed to the differences between the recorded and actual “mission and
     placement” costs. The Recipient agreed that the costs were applied to agencies rather
     than individual, but not did believe that this would cause a difference for total awards to
     the agency since costs were allocated based on level of activity. We audited all of the
     EPA grants for the time period, and found that the recorded “mission and placement”
     costs were higher than actual costs for each grant, and therefore the costs were higher at
     the agency level.

Unsupported Salaries and Wages

     The Recipient did not maintain support for distributing its salaries and wages as required
     by OMB Circular A-122. As a result, the “mission and placement” and indirect labor
     costs recorded in the general ledger were not supported as required by OMB Circular A
     122, Appendix B, Paragraph 7 m.

     OMB Circular A-122 requires that labor reports reflecting activity of each employee must
     be maintained for all staff members (professional and nonprofessional) whose
     compensation is charged, in whole or in part, directly to awards. To satisfy these
     requirements, reports maintained by nonprofit organization must meet the following
     standards:

            …The distribution of salaries and wages to awards must be supported by
            personnel activity reports…

            The reports must reflect an after-the-fact determination of the actual
            activity of each employee. Budget estimates (i.e[.], estimates determined
            before the services are performed) do not qualify as support for charges to
            awards…

            Each report must account for the total activity for which employees are
            compensated and which is required in fulfillment of their obligations to
            the organization…

            The reports must be prepared at least monthly and must coincide with one
            or more pay periods.


                                              9

     The Recipient recorded “mission and placement” labor and indirect labor in the general
     ledger based on predetermined budget estimates of the employees’ time. Although
     employees did maintain time sheets, the time sheets only identified hours worked for
     payroll purposes only. The time sheets did not identify any final cost objectives which
     would be needed to distribute the employees’ salaries and wages to awards as required by
     OMB Circular A-122.

     In June 2006, the Recipient revised the employee time sheets to reflect the employees’
     total labor activity. With this time sheet revision, the Recipient required employees to
     record direct and indirect time. The Recipient also added a new category entitled
     “Overhead Cost Objectives.” The work hours recorded as “Overhead Cost Objectives”
     reflected time spent on multiple awards within a funding agency. These costs were to be
     identified directly to final cost objectives based on a percentage of direct time charged to
     final cost objectives by each funding agency. In January 2007, the Recipient again
     revised its employee time sheets and eliminated the “Overhead Cost Objectives” labor
     category. The current time sheets, if used to distribute salaries and wages to awards, will
     comply with OMB Circular A-122. However, we did not perform any transaction testing
     of the new time sheets. Accordingly, we can not express an opinion on the adequacy of
     the revisions made.

     In responding to the draft report, the Recipient stated that timesheets were completed, but
     did not identify specific awards. The rate at which the Recipient charged time to the
     agreements approximated the activity level for the particular agency and made more
     sense and was more accurate than what is required by Federal regulations. While the
     Recipient believed its method was more accurate, it did not provide documentation to
     support that conclusion. OMB Circular A-122 identifies allowable methods for
     supporting salaries and wages, and requires awarding agency approval for other methods.
     The Recipient did not have approval for any other method. By definition, costs not
     supported by adequate documentation are questioned.

Excess Cash Drawn Down

     The Recipient received $361,190 more in EPA funds than incurred and recorded in its
     accounting system. The Recipient determined the amount of EPA funds to be drawn
     down by using budgeted amounts instead of actual costs incurred. The provisions of
     Title 40 CFR 30.22 provide that payment methods shall minimize the time elapsing
     between the transfer of funds from the United States Treasury and the issuance or
     redemption of checks, warrants, or payment by the recipient. Cash advances shall be
     limited to the minimum amounts needed and be timed to be in accordance with the actual,
     immediate cash requirements of the recipient organization in carrying out the purpose of
     the approved program or project.




                                              10

     We have calculated the excess cash as follows:

                                         Recorded Costs/Reported Outlays
         Outlay
         Category EQ82906501 EQ82898601 EQ83166001 EQ82797401                        Total
         Total
         Outlays
         As of
         9/30/06      $ 3,220,470      $5,137,791   $ 4,448,356   $ 4,774,690 $17,581,307
         Cash
         Drawn
         As of
         9/30/06        3,243,818       5,174,355     4,577,097     4,947,227      17,942,497
         Excess
         Cash
         Draws         $ 23,348         $ 36,564    $ 128,741      $ 172,537         $361,190
        Source: The source of the excess cash draws was the OIG analysis of recorded
        costs/reported outlays and the cash draws.

     In addition to the excess recorded costs, for agreement number EQ82797401, the
     Recipient incurred costs of $216,615 after the project period ended on September 30,
     2004. Title 40 CFR 30.28 provides that a recipient may charge to the agreement only
     allowable costs resulting from obligations incurred during the funding period. At the end
     of the project period, the Recipient drew EPA funds to pay for the Community Intern
     Program and the Associate Career Conference in 2005. Since the agreement project
     period expired on September 30, 2004, costs incurred after September 30, 2004, are
     unauthorized and have been questioned.

Unsupported and Unallowable Relocation Outlays

     We questioned claimed relocation outlays of $186,000 as unsupported because the
     Recipient did not (1) demonstrate that the claimed relocation outlays were allowable
     under the OMB Circular A-122, (2) support the actual relocation expenses incurred by
     interns as required by OMB Circular A-122, and (3) demonstrate whether the interns
     actually relocated. Accordingly, we questioned claimed relocation outlays of $186,000
     as unsupported. See Schedule 1, Note 2, for details on the questioned relocation outlays
     by agreement.

     In announcing the availability of Federal assistance to conduct the intern program, EPA
     announced that internships may be located at EPA or at facilities of other organizations
     with missions relating to environmental protection. The maximum period an intern may
     participate in the intern program on a full- or part-time basis with funding from EPA was
     limited to 6 months with a possibility of a 3-month extension to complete a project. If
     interns were required to relocate, EPA would provide financial assistance to the recipient
     in an amount up to $500 to offset the interns’ relocation expenses.

     OMB Circular A-122, Attachment B, Paragraph 45 defines relocation costs as costs
     incident to the permanent change of duty assignment (for an indefinite period or for a
     stated period of not less than 12 months) of an existing employee or upon recruiting a
     new employee. The EPA interns were limited to 6 months with a possible extension of 3

                                                 11

     months. Thus, relocation costs are not authorized under the Circular as the stated period
     of employment was less than 12 months.

     Attachment A, Paragraph 45 of the Circular also provides that relocation expenses are
     allowable provided that the reimbursement (1) does not exceed the employee's actual (or
     reasonably estimated) expenses, and (2) is in accordance with an established written
     policy followed by the employer. The Recipient neither required receipts from the
     interns, nor established any written policies or procedures as required by the Circular.
     Consequently, all the relocation costs are unsupported and thus unallowable.

     We sampled 25 relocation transactions to determine if the interns lived within 50 miles of
     the facility where the internships were located. Of the 25 transaction tested, we
     determined that 14, or 56 percent, of the interns worked within 50 miles of the
     internship’s residence. Consequently, there did not appear to be a need for the interns to
     relocate in 56 percent for the transactions tested.

     According to the Recipient, in some EPA offices, EPA used the $500 relocation amount
     as “getting started” assistance for the interns. The Recipient described the “getting
     started” assistance as help in establishing the interns’ housing, and assistance until the
     first pay check arrived. All interns in certain EPA locations received the $500 relocation
     amount regardless of whether the intern actually relocated. We do not consider “getting
     started” assistance as an authorized relocation expense under the Circular. Thus the costs
     are unallowable.

     In responding to the draft report, the Recipient stated that EPA offered relocation
     assistance for interns that would spend only 9 months on a project. Therefore, it is
     reasonable to conclude that EPA was not offering the assistance in the context of
     relocation as defined in OMB Circular A-122. In many instances, the project advisor
     from EPA offered the relocation assistance as an enticement to secure a particular
     candidate who would not normally accept the position at the pay rate offered. While
     EPA may have intended the relocation costs to be an enticement to hire particular
     candidates, it must do so within the requirements of Federal regulations. Only OMB has
     the authority to grant exceptions to OMB Circular A-122.

Written Accounting Procedures Did Not Meet Standards

     The Recipient did not have written accounting procedures for identifying direct and
     indirect costs, and the basis for allocating such costs to projects, as required by the
     regulations. Title 40 CFR 30.21(b) (6) states that the Recipient’s financial management
     system shall provide written procedures for determining that costs are reasonable,
     allowable, and allocable in accordance with the Federal cost principles and the terms of
     the agreement.

     The Recipient did revise its Accounting Procedures Manual on June 1, 2006. However,
     this manual is only a compilation of Federal requirements that the Recipient should
     follow. It does not identify the procedures and practices to be used when recording costs.


                                             12

     The manual does not identify the program project codes, nor does it identify the Chart of
     Accounts to be used when recording costs. This manual states that the Recipient has
     established overhead pools using a rational definition of “pool” based upon programs
     offered. It did not provide any details identifying the pool composition nor the base to
     which the rate will be applied.

     The Recipient needs to develop specific written procedures to address recording and
     allocating costs in its financial management system. In response to the draft report, the
     Recipient stated that the entire accounting staff left the organization in the summer of
     2006, and new staff was hired in the fall of 2006. Much of the staff’s time was spent
     replying to requests for historical information from the audit and little time was left to
     develop procedures.

Single Audit Not Completed

     The Recipient did not submit its single audit report for fiscal year 2005 to the Federal
     Audit Clearing House timely. OMB Circular A-133, Paragraph 320, requires entities to
     submit the audit report within the earliest of 30 days of the receipt of the audit report or 9
     months after the audit period. Thus, the audit report should have been submitted no later
     than September 30, 2006. It had not been submitted at the time we completed our audit
     fieldwork. In replying to the draft report, the Recipient agreed that the Single Audit was
     not performed.

Noncompliance with Financial Reporting Requirements

     The Recipient did not file its semiannual Federal Cash Transactions Reports (SF272)
     covering its outlays for the period July 1, 2005, through June 30, 2006. Outlays for the
     period July 1, 2006, through September 30, 2006, were required to be reported by
     January 15, 2007. As of April 13, 2007, the reports had not been submitted.
     Administrative Grant Conditions require the Recipient to submit its Federal Cash
     Transactions Report within 15 working days following the end of the semiannual periods
     ending June 30 and December 31 of each year. This report is used by EPA to monitor
     cash advances to the Recipient and to obtain disbursement information for each
     agreement. The Recipient did not comply with EPA reporting requirements. In
     responding to the draft report, the Recipient stated it was not practical to submit the forms
     prior to completion of the audit, and that declarations as to the accuracy of the
     information would not be truthful given the known adjustments to the prior period.




                                               13

                                     Recommendations
We recommend that the Director, Grants and Interagency Agreement Management Division:

      1.	   Recover payments of $4,750,3425 unless the Recipient can modify its accounting
            system to meet the requirements of Title 40 CFR 30.21 to 31.28 and
             a.	 Prepare and submit mission and placement rates to EPA for negotiation,
             b.	 Prepare and submit indirect cost rates for fiscal year 1999 through 2007 for
                 negotiation (see also recommendation 3), and
             c.	 Provide documentation to support labor costs included in the mission and
                 placement and indirect cost rates.
      2.	   Recover payments of $1,277,472 incurred for ineligible costs.
      3.	   Rescind the final indirect cost rate approved for the fiscal year ended December 31,
            2004.
      4.	   Require the Recipient to establish policies and procedures for relocation costs that
            comply with OMB Circular A-122.
      5.	   Require the Recipient to complete and submit its single audit for the fiscal year ended
            December 31, 2005.
      6.	   Require the Recipient to prepare and submit overdue SF 272 Federal Cash 

            Transactions Reports. 

      7.	   Stop work on all active agreements.
      8.	   Not award any new agreements until the Recipient meets (a) minimum financial
            management requirements, including updating written accounting procedures and
            procedures for cash draws and (b) repays all disallowed costs.




5
 Represents the questioned mission and placement and indirect costs, less the $513,667 of mission and placement
costs in excess of actual costs.

                                                       14

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed To
    No.      No.                        Subject                         Status1         Action Official          Date      Amount      Amount

     1       14     Recover payments of $4,750,342 unless the             U        EPA Director, Grants and      TBD        $4,750
                    Recipient can modify its accounting system to                  Interagency Management
                    meet the requirements of Title 40 CFR 30.21 to                         Division
                    31.28 and
                    a. Prepare and submit mission and placement
                       rates to EPA for negotiation,
                    b. Prepare and submit indirect cost rates for the
                       fiscal year 1999 through 2007 for negotiation
                       (see also recommendation 3), and
                    c. Provide documentation to support labor costs
                       included in the mission and placement and
                       indirect cost rates.

     2       14     Recover payments of $1,277,472 incurred for           U        EPA Director, Grants and      TBD        $1,277
                    ineligible cost                                                Interagency Management
                                                                                           Division

     3       14     Rescind the final indirect cost rate approved for     U        EPA Director, Grants and      TBD
                    the fiscal year ended December 31, 2004.                       Interagency Management
                                                                                           Division

     4       14     Require the Recipient to establish policies and       U        EPA Director, Grants and      TBD
                    procedures for relocation costs that comply with               Interagency Management
                    OMB Circular A-122.                                                    Division

     5       14     Require the Recipient to complete and submit          U        EPA Director, Grants and      TBD
                    its single audit for the fiscal year ended                     Interagency Management
                    December 31, 2005.                                                     Division

     6       14     Require the Recipient to prepare and submit           U        EPA Director, Grants and      TBD
                    overdue SF 272 Federal Cash Transactions                       Interagency Management
                    Reports.                                                               Division

     7       14     Stop work on all active agreements.                   U        EPA Director, Grants and      TBD
                                                                                   Interagency Management
                                                                                           Division

     8       14     Not award any new agreements until the                U        EPA Director, Grants and      TBD
                    Recipient meets minimum financial                              Interagency Management
                    management requirements and repays all                                 Division
                    disallowed costs.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  15

                                                                                                                                        Schedule 1

                Schedule of Recorded Costs/Reported Outlays and Questioned Costs
                                    by Assistance Agreement
                                                      Recorded Costs/Reported Outlays by Agreement
           Category             EQ82906501       EQ82898601        EQ83166001        EQ83103201      EQ82797401            Total           Note

Stipends                         $ 1,913,362       $ 3,104,707      $ 2,879,587        $ 771,043      $ 2,673,270      $ 11,341,969
Stipend Fringes                       210,303          332,676             253,515         73,900          294,060         1,164,454
Stipend Other                         106,281          224,110             160,533         40,869          278,225           810,018
Subtotal                          $ 2,229,946      $ 3,661,493      $ 3,293,635         $ 885,812      $ 3,245,555     $ 13,316,441
Mission and Placement                 519,203          706,274             606,697        166,760          617,220         2,616,154
Indirect                              471,321          770,024             548,013        163,197          695,300         2,647,855
Fee                                    -                -                      11               28          -                      39
Other                                  -                -                  -               -               389,152           389,152
Total                             $ 3,220,470      $ 5,137,791      $ 4,448,356       $ 1,215,797      $ 4,947,227      $18,969,641
Questioned Costs:
Stipend Other - Relocation             18,000           55,500              18,500         10,000           84,000           186,000        1
Mission and Placement                 519,203          706,274             606,697        166,760          617,220         2,616,154        2
Indirect                              471,321          770,024             548,013        163,197          695,300         2,647,855        3
Other                                        0                0                 0                0         216,615           216,615        4
Excess Cash Draws                      23,348           36,564             128,741               0         172,537           361,190        4
Total Questioned                  $ 1,031,872      $ 1,568,362      $ 1,301,951         $ 339,957       $1,785,672       $6,027,814

Source: Except for agreement EQ82797401, the sources of the recorded costs were the Recipient’s Schedules of Recorded Costs dated
November 29, 2006. For agreement EQ82797401, the source of the reported outlays was the Recipient’s final Financial Status Reports dated
December 30, 2004. The source of the questioned amount was the OIG analysis of recorded costs/reported outlays.



                                                                      16
Note 1: 	   See the Results of Examination, page 11, for the discussion of unsupported and
            unallowable relocation outlays. The summary of questioned relocation outlays
            follows:
                                             No. of
                          Agreement         Interns         Questioned
                          EQ82906501             36             $ 18,000
                          EQ82898601             111              55,500
                          EQ83166001             20               10,000
                          EQ83103201             37               18,500
                          EQ82797401             168              84,000
                             Total               372           $ 186,000


Note 2: 	   See the Results of Examination, page 7, for the discussion of unsupported
            “mission and placement” outlays. The questioned “mission and placement”
            outlays of $2,616,154 consist of (1) outlays of $513,667 identified in excess of
            actual costs; and (2) outlays of $2,102,487 ($2,616,154 - $513,667) based on rates
            which were not submitted to EPA for negotiation. The summary of the
            questioned excess “mission and placement” outlays follows:

                                                         Rate not
                                     Excess            submitted for
                 Agreement           Amount             negotiation    Schedule
                 EQ82906501           $ 59,594             $ 459,609       2.1
                 EQ82898601           148,877                557,397       2.2
                 EQ83166001           107,374                499,323       2.3
                 EQ83103201            17,259                149,501       2.4
                 EQ82797401           180,563                436,657       2.5
                 Total               $ 513,667            $2,102,487
                          Source OIG analysis of recorded costs/reported
                          outlays.

Note 3: 	   See the Results of Examination, page 5, for the discussion of unsupported
            indirect outlays of $2,647,855.

Note 4: 	   See the Results of Examination, page 10, for the discussion of the excess cash
            draws and other costs incurred after the grant project period.




                                                 17

                                                                                       Schedule 2

             Schedules of Excess Mission and Placement Costs
In Schedule 1, Note 2, we questioned “mission and placement” costs of $513,667 identified to
the EPA agreements in excess of actual outlays incurred. The following schedules detail the
questioned excess outlays by agreement. Beginning June 1, 2006, the Recipient revised its
accounting system to identify “mission and placement” costs as a direct cost, and did not use a
“mission and placement rate,” therefore, we used N/A (not applicable) for that period.

                                        Schedule 2.1 

                                   Agreement EQ82906501 


                                    Total         Mission and Placement Rates     Excess
          Period                   Stipend      Recorded    Actual   Difference   Amount
          CY 2001                    $ 96,645    23.09%    16.83%      6.26%       $6,050
          CY 2002                     200,388    23.09%    18.88%      4.21%        8,436
          CY 2003                     465,121    23.09%    17.15%      5.94%       27,628
          CY 2004                     931,602    24.12%    23.16%       .96%        8,943
          1/1/2005 - 6/30/2005         85,958    24.00%    18.04%      5.96%        5,123
          7/1/2005 - 12/31/2005        64,296    23.35%    18.04%      5.31%        3,414
          1/1/2006 - 5/31/2006         17,756    23.09%    32.47%     (9.38%)           0
          6/1/2006 – 9/30/2006         51,596   N/A        N/A      N/A

          Total                   $ 1,913,362                                      $59,594


                                        Schedule 2.2 

                                   Agreement EQ82898601 


                                    Total         Mission and Placement Rates     Excess
          Period                   Stipend      Recorded    Actual   Difference   Amount
          CY 2001                  $ 299,910     23.09%    16.83%      6.26%      $ 18,774
          CY 2002                  1,164,240     23.09%    18.88%      4.21%        49,015
          CY 2003                  1,209,592     23.09%    17.15%      5.94%        71,850
          CY 2004                    159,195     23.09%    23.16%      (.07%)            0
          1/1/2005 - 6/30/2005         34,873    23.09%    18.04%      5.05%         1,761
          7/1/2005 - 12/31/2005      148,065     23.09%    18.04%      5.05%         7,477
          1/1/2006 - 5/31/2006          8,452    23.09%    32.47%     (9.38%)            0
          6/1/2006 – 9/30/2006         80,380   N/A        N/A      N/A

          Total                   $ 3,104,707                                     $ 148,877




                                                  18

                                Schedule 2.3 

                           Agreement EQ83166001 


                            Total         Mission and Placement Rates          Excess
Period                     Stipend      Recorded    Actual   Difference        Amount
CY 2004                    $ 315,831     25.00%    23.16%      1.84%            $ 5,811
1/1/2005 - 6/30/2005         480,620     24.98%    18.04%      6.94%            33,355
7/1/2005 - 12/31/2005        980,001     25.00%    18.04%      6.96%            68,208
1/1/2006 - 5/31/2006         336,748     25.00%    32.47%     (7.47%)                 0
6/1/2006 – 9/30/2006         766,387    N/A        N/A      N/A

Total                     $ 2,879,587                                         $ 107,374


                                Schedule 2.4 

                           Agreement EQ83103201 


                            Total         Mission and Placement Rates          Excess
Period                     Stipend      Recorded    Actual   Difference        Amount
CY 2003                      $ 10,610    23.09%    17.15%      5.94%              $630
CY 2004                       393,893    23.75%    23.16%       .59%             2,324
CY 2005                       125,070    24.62%    18.04%      6.58%             8,230
7/1/2005 - 12/31/2005          87,412    24.99%    18.04%      6.95%             6,075
1/1/2006 - 5/31/2006           23,349    25.00%    32.47%     (7.47%)                0
6/1/2006 – 9/30/2006          130,709   N/A        N/A      N/A

Total                      $ 771,043                                           $ 17,259


                                Schedule 2.5 

                           Agreement EQ82797401 


                            Total         Mission and Placement Rates          Excess
Period                     Stipend      Recorded    Actual   Difference        Amount
CY 2000                    $ 748,378     23.09%    12.36%     10.73%           $ 80,301
CY 2001                      810,151     23.09%    16.83%      6.26%             50,715
CY 2002                      308,264     23.09%    18.88%      4.21%             12,978
CY 2003                      615,640     23.09%    17.15%      5.94%             36,569
1/1/04 – 9/30/04             190,837     23.09%    23.16%      (.07%)                 0

Total                      $ 2,673,270                                         $ 180,563
   Source: The source of Schedules 2.1 through 2.5 was the OIG analysis of recorded
   costs/reported outlays.




                                          19

                                                                                    Appendix A

                           Scope and Methodology
We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the Office of Inspector General Project Management Handbook, dated
January 14, 2005. We conducted this examination to express an opinion on the Recorded
Costs/Reported Outlays by Agreement, and determine whether the Recipient complied with all
applicable laws and regulations, as well as any special requirements under the agreement. We
conducted our field work from November 29, 2006, through March 9, 2007.

In conducting our examination, we performed the following procedures:

   •	 We reviewed the cooperative agreements and project files to obtain background 

      information on the Recipient and the agreements. 


   •	 We interviewed the Recipient’s personnel to understand the current accounting system
      and the applicable internal controls as they relate to the reported outlays. Prior to our
      audit, all of the Recipient’s senior accounting personnel had terminated employment and
      the current staff did not have knowledge of the prior accounting system and internal
      controls for recording financial information in the prior system. Therefore, we based our
      review on transactions testing only for those costs.

   •	 We reviewed the most recent single audit reports to identify issues which may impact our
      examination.

   •	 We examined the recorded costs/reported outlays on a test basis to determine whether the
       outlays were adequately supported and eligible for reimbursement under the terms of the
       agreements and Federal regulations and cost principles.

   •	 We reviewed the cooperative agreements to identify activities the Recipient was to
       perform and evaluated the activities it accomplished.




                                               20

                                                                                    Appendix B

                               Recipient Response
June 5, 2007


Richard Valliere
EPA, Office of Inspector General (OIG)
One Congress Street
Suite 1100
Boston, MA 02114-2023

Dear Mr. Valliere,

       Please accept this letter as the response to the Draft Attestation Report dated May 7,
2007. I have made comments or responses in the same order as they appear in your report.

   1.	 Unsupported Indirect Outlays
          A. The Organization had submitted indirect cost proposals to the EPA for negotiation
             in several of the years covered under the audit period. The EPA never responded
             to the submission of these reports or assigned an indirect rate other than in year
             2004. The EPA has given the impression that it did not care about these reports
             until it was time for an audit.
          B. In indirect rate was assigned at 18.14% for 2004. T 	 here were some billing errors
             that used either 18% or 19%.
          C. The provisional rate of 18.14% was used in 2005 even though actual rates were
             running in the area of 23%. As later approved by our cognizant agency.
          D. There were no employees from ECO left on staff during the audit period that
             would have had first hand knowledge of the transactions in question. Simply
             determining that they are unallowable is considerably different than the standard
             of reasonableness.
          E. The Organization summarized data in a short period of time from historical
             records for which no person was on staff that prepared the information. This was
             not a submission or negotiation of an indirect rate. Even with items that may have
             been unallowable costs excluded from the calculation of indirect costs, the rate
             billed was still less than the actual funds spent.

   2.	 Unsupported “Mission and Placement” Outlays
          A. It would appear that no Mission and Placement rate was negotiated. 	However,
             there was a calculation made annually to provide for reimbursement of these costs
             and those calculations were provided.
          B. There would certainly be differences with documentation and calculations of rates
             made by people no longer employed by the organization and calculated as much
             as six years ago.


                                                21

       C. The Organization applied costs to agencies rather than by actual project. 	This
          may cause some discrepancy on an individual award within the particular agency
          but certainly not with in that agency since the costs were allocated based on a
          level of activity or volume. This hardly seems to warrant the disallowance of all
          expenses.

3.	 Unsupported Salaries and Wages
       A. Time sheets for program staff were completed but not assigned to specific
           contracts or awards.
       B. Most staff employees performed administrative functions only, such as
           accounting, human resources or administrative duties.
       C. The purely administrative staff’s time was charged to indirect expenses.
       D. Program Managers were the only billable people spending time on contracts or
           awards.
       E. The program staff had very little, if any, administrative time.
       F.	 The job title and description for the program staff specified the duties they would
           perform, which is entirely billable.
       G. Some staff had job titles such as EPA Program Coordinator. 	Their position
           required they recruit staff and manage EPA Programs only.
       H. The same is the case for other program managers with other specific agencies.
       I.	 There were two managers that had any significant allocation of their time across
           several agencies. With job titles such as Federal Programs Manager this would
           make sense.
       J.	 The rate at which time was charged to agencies would approximate the activity
           level with those agencies.
       K. Applying time by tiny increments to specific task orders is highly unrealistic.
           Even though you will be complying with the A-122, in reality you are really
           pretending to track costs. Using allocation of time based on level of activity,
           especially when all the awards provide for the same activity, makes much more
           sense and is infinitely more accurate.

4.	 Unsupported and Unallowable Relocation Outlays
       A. The EPA awards offered relocation assistance even though it was an award that
          did not allow for interns to spend more than 9 months on any particular
          assignment. Therefore, it was reasonable to expect that the “relocation” the EPA
          was offering was not in the context of the relocation definition in the A-122.
       B. In many instances it was the Project Advisor from the EPA who offered the
          “relocation” to the intern as further enticement to secure a particular candidate
          who would not normally accept the position at the pay rate offered.

5.	 Written Accounting Procedures Did Not Meet Standards
       A. The entire accounting staff of ECO had left the Organization by the summer of
           2006.
       B. The department was staffed with people with actual accounting degrees and
           experience by fall of 2006.



                                            22

             C. During the following months the entire department and much of the other
                administrative staff was bogged down by requests for historical information in the
                course of the audit, not to mention trying to keep the existing activity current.
                This left precious little time to document a new accounting procedure.

   6. Single Audit Not Complete
         A. The audit was almost impossible to complete while an ongoing EPA audit is
             happening at the same time.
         B. The outcome of the audit was of great interest to our accountants.

   7. Noncompliance with Federal Reporting Requirements
         A. The submission of the Federal Cash Transactions Reports (SF272) was not
            practical with out the completion of the EPA audit.
         B. Any declarations signed by the preparer could be considered untruthful if
            adjustments were made to the prior period. This was a “catch 22” situation.


       If you have any question please do not hesitate to contact me.




Sincerely,




Kevin D. Carter, CPA
Director of Finance and Accounting




                                                23

                                                                              Appendix C

                                      Distribution

Office of the Administrator
Director, Grants and Interagency Agreement Management Division (Action Official)
Director, Office of Grants and Debarment
Audit Followup Coordinator, Office of Grants and Debarment
Assistant Administrator for Enforcement and Compliance Assurance
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                            24

